BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies and
1 unbound copy of the foregoing Brief of Amicus Curiae
Digital Justice Foundation in Support of Affirmance in
19-783, Nathan Van Buren v. United States, were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 3rd day of
September, 2020:
Jeffrey L. Fisher
Stanford Law School Supreme Court Litigation Clinic
559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu
Counsel for Petitioner

Jeffrey Wall
Acting Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Edward F. Cunningham
Counsel of Record
Law Offices of Edward F. Cunningham
62 Cambridge Avenue
Garden City, NY 11530
(516) 328-3705
ed@edcunninghamlaw.com
Andrew Grimm
Digital Justice Foundation
15287 Pepperwood Drive
Omaha, NE 68154
(531) 210-2381
Gregory Keenan
Digital Justice Foundation
81 Stewart Street
Floral Park, NY 11001
(516) 633-2633
Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 3, 2020.

Donna J. Wolf
Becker Gallagher L: : i :lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

--~~

~ 31 ct?dO

c)z1l i.

Notary Public

/J~

[seal]

•

